              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report
Treatment of Mixed Incinerable
Waste




DOE/IG-0588                                 March 2003
Page 17
Page 18
TREATMENT OF MIXED INCINERABLE WASTE

TABLE OF
CONTENTS



                Use of Treatment Resources

                Details of Finding ........................................................................1

                Recommendations and Comments ............................................6


                Appendices

                Prior Reports ...............................................................................8

                Objective, Scope, and Methodology ...........................................9

                Management Comments ...........................................................11
USE OF TREATMENT RESOURCES

Waste Stored Rather   We found the Department of Energy (Department) was not treating its
Than Treated          mixed incinerable solid waste expeditiously or cost-effectively.
                      Specifically, the Department:

                      •   Did not fully utilize the Toxic Substances Control Act (TSCA)
                          Incinerator or the Vacuum-Assisted Thermal Desorption (VTD)
                          System;

                      •   Stored about 2.5 million pounds of incinerable waste at seven sites
                          rather than treating the waste in Oak Ridge; and,

                      •   Approved development of an additional VTD treatment facility in
                          Utah, even though existing facilities were underutilized in Oak
                          Ridge.

                                               TSCA Incinerator Operations

                      The TSCA Incinerator is operated under a fixed-price subcontract to
                      Bechtel Jacobs Company, LLC (Bechtel Jacobs), the Department's
                      management and integration contractor for the East Tennessee
                      Technology Park (ETTP). In Fiscal Year (FY) 2002, the incinerator
                      was used to treat only about 174,000 pounds of solid waste. This is
                      about 48 percent of the minimum amount specified in the subcontract
                      (360,000 pounds), and 31 percent of the incinerator's demonstrated
                      capacity (560,000 pounds). Further, the burn rate is likely to diminish
                      in the future because Bechtel Jacobs has completed treatment of the
                      Oak Ridge Reservation's mixed incinerable solid waste inventory and
                      shipments from other sites have been delayed.

                      Under the terms of the subcontract, the fixed price for the incineration
                      of a minimum of 360,000 pounds of solid waste1 declines annually from
                      $8.5 million in 2000 to $6.1 million in 2006. If the burn rate reaches
                      360,000 pounds per year, the treatment price is approximately $2 per
                      pound for every pound above the threshold. At this rate, incineration is
                      the Department's least-cost alternative for treating mixed incinerable
                      waste.




                      1
                       The subcontract also requires the treatment of 720,000 pounds of liquid waste each
                      year.

Page 1                                                                              Details of Finding
         The Office of Inspector General issued two prior reports dealing with
         the inefficient operation of the TSCA Incinerator. Our report on Waste
         Incineration at the Oak Ridge Reservation (DOE/IG-0451, August
         1999), disclosed that the Department did not operate the incinerator at
         the capacity permitted by the State of Tennessee or at the "attainable"
         capacity. Also, our Audit of Subcontracting for Environmental
         Management Projects at the Oak Ridge Reservation (ER-L-02-04, July
         2002), disclosed that although minimum burn requirements were not
         met, the Department paid over $700,000 in overtime wages and
         performance-based incentives for waste incineration. At the time, we
         urged the Department to closely scrutinize such costs and incentive
         fees. During the current audit, however, we noted that the Department
         continues to pay additional costs and incentive fees for TSCA
         Incinerator operations even though the subcontract's minimum burn
         requirements still have not been met. In fact, between FY 2000 and
         FY 2002, the Department paid the subcontractor $809,600 for upward
         price adjustments and is planning to pay Bechtel Jacobs $1.5 million in
         incentive fees related to incinerator operations.

                                VTD System Operations

         Bechtel Jacobs also has an agreement with East Tennessee Materials
         and Energy Corporation (Materials and Energy Corporation) to treat
         mixed incinerable waste with the VTD System at the ETTP. While the
         VTD System has the capacity to treat 156,000 pounds of waste per
         month, the Department treated only about 86,000 pounds per month
         between January and September 2002. Only three percent of the treated
         waste came from generators outside the Oak Ridge Reservation.

         Materials and Energy Corporation offers volume discounts, and the
         subcontract can be used by all Department sites nation-wide. Prices
         vary, depending on the level of toxicity and volume of waste to be
         treated. Overall, the VTD System, like the TSCA Incinerator,
         represents a cost-effective means of waste treatment that the
         Department has, thus far, not used to capacity.

                                     Waste Storage

         A recent Department study justified the continued operation of the
         TSCA Incinerator through 2006 because the potential demand for
         incineration, primarily from sites outside Oak Ridge, far exceeded
         treatment capacity. However, instead of shipping the waste to Oak
         Ridge for treatment, seven sites have stored about 2.5 million pounds of
         incinerable waste locally. Also, some of the sites have stored their

Page 2                                                        Details of Finding
                     waste for several years. For example, the Hanford Site has stored
                     incinerable waste for as long as 16 years. The seven sites and their
                     current inventories of mixed incinerable solid waste are:

                                                              Inventory in
                              Site                         Thousands of Pounds

                            Hanford                                790
                            Paducah                                709
                            Fernald                                463
                            Savannah River                         270
                            Portsmouth                             248
                            Idaho                                   45
                            Rocky Flats                              9

                            Total                                 2,534


                                             New Treatment Facility

                     Even though existing treatment facilities were underutilized, the
                     Department approved development of an additional VTD facility in
                     Utah. The Department plans to use the new facility to treat about 1,300
                     drums of waste from the Fernald site. Development of the new facility
                     is estimated to cost the Department about $3 million. Approval of such
                     a facility appears inconsistent with the underutilization of existing
                     facilities we noted, as well as with conclusions Environmental
                     Management reached in its 2001 report on Ensuring Viable Treatment
                     Paths for DOE Incinerable Waste. Environmental Management's report
                     stated that existing thermal desorption treatment capacity far exceeded
                     the estimated demand through 2006.

                     Fernald management stated that the new treatment facility was justified
                     because the Materials and Energy Corporation's VTD System had not
                     yet demonstrated the ability to treat certain types of incinerable waste
                     from the Fernald site. However, the technologies are almost identical
                     between the VTD System and the planned new facility. Also, most of
                     the Fernald site's incinerable waste could be treated using the TSCA
                     Incinerator.

Program Management   The Department did not maximize the use of existing treatment
Improvements         resources because the Office of Environmental Management did not
                     manage the treatment of mixed incinerable solid waste as a complex-
                     wide activity, and the Oak Ridge Operations Office (Operations Office)
                     did not effectively manage the TSCA Incinerator.
Page 3                                                                    Details of Finding
                          Complex-Wide Program Management

         Environmental Management does not have an integrated,
         comprehensive plan for the treatment of mixed incinerable solid waste.
         Environmental Management's current organizational structure places
         the responsibility for decisions regarding the treatment of incinerable
         waste at the field office level. However, field managers are,
         understandably, making decisions based on their own site's interests
         rather than the complex as a whole. For example, the decision to build
         an additional thermal desorption system in Utah, despite existing
         capabilities in Tennessee, was, according to a responsible Department
         official, based primarily on the Fernald site's desire to obtain a
         subcontractor that assures Fernald a prioritized treatment schedule. The
         subcontract for the new facility states that the Fernald site's waste will
         be given "…first priority over all other customers for treatment..."
         While this requirement ensures that the Fernald site's waste will be
         treated first, it does not consider the cost-effectiveness of the
         procurement nor the risk related to other sites' wastes.

         Another example of the need for complex-wide management involves
         scheduling shipments of waste for treatment at the VTD System in Oak
         Ridge. Currently, the individual sites determine their own shipping
         schedules, and ship waste without taking Department-wide shipping
         priorities into account. As a result, about 67 percent of the
         Department's waste treated at the VTD System from January through
         September 2002 was shipped during the last three months. If shipments
         had been coordinated and scheduled more evenly, it is likely that more
         waste could have been treated during the year.

                          Management of the TSCA Incinerator

         Also, the Operations Office did not effectively manage the TSCA
         Incinerator operations. Specifically, it did not attempt to remove
         unnecessary administrative barriers to waste treatment, nor did it
         require Bechtel Jacobs to operate the incinerator at or near the
         demonstrated capacity. Although there is no regulatory requirement to
         do so, the Operations Office submits its annual burn plan to the
         Tennessee Department of Environment and Conservation (TDEC) and
         waits for approval before offsite wastes are sent to the incinerator for
         treatment. This results in substantial delays since the TDEC does not
         approve the burn plan in a timely manner. For example, the FY 2002
         burn plan was submitted to the TDEC on October 9, 2001, and was not
         approved until February 28, 2002. The TDEC cited issues such as the
         equity of funding and cleanup levels among Department sites – not

Page 4                                                         Details of Finding
                          technical or environmental compliance issues – as reasons for the delay
                          in approving the burn plan. These unnecessary, lengthy delays have
                          discouraged offsite users from sending wastes to the TSCA Incinerator
                          for treatment.

                          Further, the TSCA Incinerator should be operational around 70 percent
                          of the time, considering downtime for maintenance and calibrations.
                          However, between 2000 and 2002, the incinerator was operational only
                          about 40 percent of the time. Because the incinerator is the
                          Department's most economical source of treating mixed incinerable
                          solid waste, reducing system downtime is crucial to obtaining users'
                          confidence in the treatment process and maximizing system
                          capabilities.

Health and Safety Risks   Unless it maximizes the use of its treatment capabilities, the
and Unnecessary Costs     Department risks subjecting its workers and the public to unnecessary
                          health and safety hazards. Between 2000 and 2002, the Department
                          could have treated an additional 1.6 million pounds of solid waste had
                          the TSCA Incinerator and VTD System operated at its demonstrated
                          capacity. Storing the waste is inherently more dangerous than treating
                          it because there are more opportunities for inadvertent exposure,
                          leakage, or other problems. Also, based on costs incurred at three
                          Department sites, we estimated the Department incurred at least $8.5
                          million in unnecessary storage costs over the last three years.

                          Additionally, if the TSCA Incinerator operational inefficiencies are not
                          resolved and the new treatment facility is fully deployed, the
                          Department could spend $48 million in unnecessary treatment and
                          storage costs by 2006. Because the incinerator operates under a
                          fixed-price subcontract, operating at less than capacity results in
                          increased unit costs and lost treatment opportunities. For example, in
                          FY 2002 the unit rate for treatment of waste at the TSCA Incinerator
                          was $17 per pound; however, had the subcontractor operated the
                          incinerator at its demonstrated capacity, the unit rate would have
                          averaged about $10.52 per pound. Thus, the Department did not
                          effectively use $13 million in treatment funds because the TSCA
                          Incinerator did not operate at full capacity between FY 2000 and
                          FY 2002. Further, should the current trend continue, the Department
                          could miss the opportunity to treat 1.5 million pounds of waste and
                          incur an additional $45 million in unnecessary treatment and storage
                          costs between FY 2003 and FY 2006. Finally, the Department could
                          avoid up to $3 million in unnecessary costs by terminating its plan to
                          develop an additional VTD System and using existing treatment
                          facilities instead.

Page 5                                                                         Details of Finding
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environmental
                  Management:

                     1. Establish an integrated complex-wide mixed incinerable waste
                        treatment program to ensure optimal use of treatment facilities;
                        and,

                     2. Ensure that Fernald wastes cannot be treated at existing facilities
                        before investing $3 million to develop a new treatment facility.

                  We recommend that the Manager, Oak Ridge Operations Office:

                     1. Effectively manage the TSCA Incinerator by requiring operation
                        at or near the demonstrated capacity, with less than 30 percent
                        downtime;

                     2. Restructure Bechtel Jacobs' performance incentives to ensure
                        that incentive fees are tied to cost-effective utilization of the
                        TSCA Incinerator; and,

                     3. Work with TDEC to review the TSCA Incinerator burn plan
                        approval process for ways to expedite the process while
                        maintaining compliance with all health, safety and regulatory
                        requirements.


MANAGEMENT        Management concurred with the report's finding and recommendations.
REACTION          Specifically, the Assistant Secretary for Environmental Management
                  has initiated reviews to look at business practices and general
                  efficiencies in waste management and committed to work with the
                  TDEC to assure the burn plan approval process is timely. Also, the
                  Department requested the National Academy of Sciences to review how
                  it could make more effective use of existing capabilities and facilities.

                  With respect to the TSCA Incinerator, the Department stated that TDEC
                  has delayed the receipt of out-of-state waste in the past through delays
                  in the burn plan approval, but the process has improved. The 2003
                  Burn Plan was submitted to TDEC in late summer, and they provided
                  their timely approval in early fall. The Department will continue to
                  work with TDEC to assure that the approval process is timely and
                  maintains compliance with all health, safety, and regulatory
                  requirements. While management's written comments did not address
                  the first two recommendations related to the Oak Ridge Operations


Page 6                                              Recommendations and Comments
                   Office, subsequent discussions were held with EM to clarify the
                   Department's position. Based on these discussions, management agreed
                   to take corrective action. Specifically, once the burn plan was approved
                   by TDEC, the Department committed to use the plan to evaluate
                   alternative operating strategies to ensure efficient treatment of the
                   approved waste volumes, including potential changes to the subcontract
                   structure and performance incentives. We have included management's
                   written comments in their entirety as Appendix 3.


AUDITOR COMMENTS   We appreciate management's commitment to correcting the deficiencies
                   and noted the actions initiated by the Assistant Secretary for
                   Environmental Management to increase efficiency. If all
                   recommendations are implemented successfully, the Department should
                   significantly reduce its waste volumes, waste treatment costs, and the
                   risks associated with waste storage.




Page 7                                                                         Comments
Appendix 1
                                           PRIOR REPORTS



  •   Utilization of the Department's Low-Level Waste Disposal Facilities (DOE/IG-0505, May 2001).
      The Department did not adequately utilize existing low-level waste disposal capacity at the Hanford
      Site or Nevada Test Site. Instead, the Department stored large amounts of waste at generator sites
      or disposed of the waste at commercial disposal sites. This occurred because the Department did
      not have a comprehensive approach to maximize waste disposal.

  •   Waste Incineration at the Oak Ridge Reservation (DOE/IG-0451, August 1999). The Department
      did not operate the TSCA Incinerator at the capacity permitted by the State of Tennessee or at the
      "attainable" capacity. Contributing factors included 1) the majority of on-site waste was not
      characterized for the development of an effective burn plan, and 2) the State of Tennessee restricted
      incineration of out-of-state waste. Furthermore, waste could be treated more economically at
      commercial facilities once these treatment options come on-line.

  •   Waste Incineration at the Savannah River Site (DOE/IG-0453, October 1999). Westinghouse was
      not operating the Consolidated Incinerator Facility (CIF) at its permitted capacity. The CIF was
      operated at about 8 percent of capacity in FYs 1997 and 1998, and Westinghouse planned to operate
      the CIF at 32 percent of capacity or less in FY 1999 and beyond. This occurred because the
      Department designed the CIF to incinerate more waste than the Site had available for treatment.

  •   Waste Incineration at the Idaho National Engineering and Environmental Laboratory (DOE/IG-
      0454, December 1999). The Department did not operate the incinerator at the capacity permitted by
      the State of Idaho or at the "attainable" capacity. Two factors contributed to the shortfall in actual
      operations relative to the capacity of the incinerator. Specifically, operations were limited because
      the downtime between incineration campaigns was excessive and the majority of on-site waste was
      not sorted, segregated, and characterized for incineration.




Page 8                                                                                       Prior Reports
Appendix 2
OBJECTIVE     The objective of this audit was to determine whether the Department
              was treating its mixed incinerable solid waste in an expeditious and
              cost-effective manner.


SCOPE         The audit was performed from June to October 2002 at the Oak Ridge
              Reservation in Oak Ridge, Tennessee; Fernald Environmental
              Management Project near Ross, Ohio; and Environmental Management
              Headquarters in Washington, D.C. The scope of the audit included the
              Department's treatment of mixed incinerable solid waste activities from
              FY 2000 through FY 2002. Because less than 10 percent of the total
              mixed incinerable waste inventory is liquid, our review was limited to
              solid waste streams.


METHODOLOGY   To accomplish the audit objective, we:

                 •   Obtained and reviewed applicable Department directives for the
                     treatment of mixed incinerable waste;

                 •   Discussed with Office of Environmental Management officials
                     alternative management methods for the treatment of the
                     Department's mixed incinerable solid waste;

                 •   Obtained mixed incinerable solid waste inventory information
                     from seven of the Department's generator sites;

                 •   Interviewed contractor personnel from the Department's existing
                     treatment facilities and determined treatment capacity;

                 •   Reviewed production data from treatment facilities to determine
                     quantities of waste treated;

                 •   Determined the Department's cost to operate the TSCA
                     Incinerator from FY 2000 through FY 2002; and,

                 •   Determined the cost of storing mixed incinerable waste at
                     Fernald, Hanford, and Portsmouth.

              The audit was conducted in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our review
              was limited, it would not necessarily have disclosed all internal control


Page 9                                         Objective, Scope, and Methodology
          deficiencies that may have existed at the time of our audit. Because
          only a limited amount of computer-processed data was used during the
          audit, we did not conduct a reliability assessment of computer-
          processed data.

          Finally, we assessed the Department's compliance with the Government
          Performance and Results Act of 1993. The Department's Annual
          Performance Plans for FYs 2000 through 2002 contained performance
          measures based on treating and disposing of specific waste volumes and
          waste streams from its sites. The Department met its FY 2000 and
          2001 performance objectives for mixed waste treatment and disposal;
          however, the Department did not carry out its strategy for integrating
          waste treatment facilities to maximize efficiency, or reduce
          environmental risks and costs of operation. In addition, Oak Ridge
          Operations did not establish adequate performance measures for
          Bechtel Jacobs' TSCA Incinerator operations.

          Department officials waived the exit conference.




Page 10                                   Objective, Scope, and Methodology
Appendix 3




Page 11      Management Comments
Appendix 3 (Continued)




Page 12                  Management Comments
                                                                              IG Report No.: DOE/IG-0588

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
